No. 19-123

 

IN THE

Supreme Court of the United States

SHARONELL FULTON, ET AL., PETITIONERS

Vv.

CITY OF PHILADELPHIA, ET AL.

ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

BRIEF FOR THE AMERICAN BAR ASSOCIATION AS
AMICUS CURIAE IN
SUPPORT OF RESPONDENTS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,296 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on August 20, 2020.

ore
Colin Casey Hégan

Wilson-Epes Printing Co., Inc.
